DOE/IG-0424


         AUDIT                 ARCHITECT AND ENGINEERING
        REPORT                  COSTS AT LOS ALAMOS AND
                                    SANDIA NATIONAL
                                     LABORATORIES




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL           AUGUST 1998
   OFFICE OF AUDIT SERVICES
                                               August 7, 1998


MEMORANDUM FOR THE ACTING SECRETARY

FROM:                  Gregory H. Friedman
                       Acting Inspector General

SUBJECT:               INFORMATION: Audit Report on "Architect and Engineering Costs at Los Alamos
                       and Sandia National Laboratories"

BACKGROUND

The 1993 National Performance Review Report recommended performance measurement and benchmarking
against industry standards as tools to help improve Government operations. This recommendation was one of
the bases for the Department's development of its Improvement Plan for Reducing Architect-Engineering
Costs. This plan directed operations offices to manage to a standard architect and engineering (A-E) cost as a
percentage of construction. Based on this initiative, the objective of our audit was to determine whether A-E
costs at Los Alamos National Laboratory (Los Alamos) and Sandia National Laboratories (Sandia) were rea-
sonable in comparison with industry standards.

RESULTS OF AUDIT

After adjusting published industry standards to accommodate special design requirements associated with De-
partment of Energy projects, we found that Sandia's A-E costs were reasonable in relation to these standards
but that Los Alamos' costs were not. In fact, A-E costs for the Los Alamos projects included in our review
were 65 percent, or $2.5 million, over the adjusted standard. Los Alamos incurred these high costs because
controls and performance measures were inadequate. If these controls and performance measures are not im-
proved, we estimate that $8 million will be spent in excess of the adjusted industry standards on projects
planned for funding at Los Alamos over the next three years. We recommended that the Albuquerque Opera-
tions Office require Los Alamos to (1) establish performance measures for A-E costs as a percentage of con-
struction with an expected level of performance and weight for performance evaluation purposes and (2)
award contracts for A-E services (including design orders) competitiely based on technical competence and
price.


MANAGEMENT REACTION

The Albuquerque Operations Office agreed with our finding and recommendations. The Los Alamos Area
Office has been tasked to generate a corrective action plan to address the recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary
ARCHITECT AND ENGINEERING COSTS AT LOS ALAMOS AND
SANDIA NATIONAL LABORATORIES

 TABLE OF
 CONTENTS



                 Overview

                 Architect and Engineering Costs at Los Alamos and
                 Sandia National Laboratories ......................................... 1


                 Costs Compared to Industry Standards


                 Details of Finding............................................................ 3


                 Recommendations and Comments ................................. 6


                 Appendix


                 Scope and Methodology ................................................. 8
OVERVIEW
INTRODUCTION AND   A number of initiatives include focusing on the need to establish
OBJECTIVE          objective goals and measuring performance against those goals. The
                   Government Performance and Results Act of 1993 stated that goals
                   should be set by agencies, results should be measured against those
                   goals, and agencies should be held accountable for achieving results.
                   The Improvement Plan for Reducing Architect-Engineering Costs
                   issued by the Department of Energy (DOE) to its operations offices in
                   1993 recognized the need for a standard of performance. It required
                   operations offices to implement a standard architect-engineering (A-E)
                   cost as a percentage of construction on projects.

                   In addition to these initiatives, the Office of Inspector General (OIG) has
                   issued three audit reports in the last several years that identified
                   problems with high A-E costs at DOE's facilities. In September of 1990,
                   the OIG issued report Departmentwide Audit of Architect and
                   Engineering Design Costs (DOE/IG-0289) which concluded that A-E
                   costs at six locations averaged more than twice that of industry on
                   comparable projects. In July of 1992, the OIG issued report
                   Department of Energy's Superconducting Super Collider (SSC)
                   Conventional Construction Program (DOE/IG-0313) that stated costs
                   for designing certain facilities at the SSC were running at least twice as
                   much as planned. Last, in March of 1996, the OIG issued report Audit
                   of Architect and Engineering Costs at the Idaho National Engineering
                   Laboratory (DOE/IG-0387) that found A-E costs for 65 conventional
                   construction projects to be $5.8 million higher than comparable industry
                   standards.

                   In light of the initiatives and prior OIG audits, the objective of our audit
                   was to determine whether A-E costs at Los Alamos National Laboratory
                   (Los Alamos) and Sandia National Laboratories (Sandia) were
                   reasonable in comparison to industry standards that were adjusted
                   upward to accommodate additional design requirements associated with
                   DOE projects.

                   We found that Sandia's A-E costs were reasonable in comparison with
CONCLUSIONS AND    the adjusted industry standards and Los Alamos' costs were not.
OBSERVATIONS       Although Albuquerque Operations Office (Albuquerque) did not give
                   either laboratory a standard of performance, Sandia's controls over A-E
                   costs, including competition among firms for A-E procurements, kept its
                   performance at a level comparable to adjusted standards. Los Alamos'
                   A-E costs were 65 percent, or $2.5 million, over the adjusted standards
                   for the seven projects reviewed. This occurred at Los Alamos because



Page 1                              Architect and Engineering Costs at Los Alamos
                                    and Sandia National Laboratories
         Alamos because cost controls and performance meausres were
         inadequate and ineffective. If controls and performance measures are
         not improved at Los Alamos, DOE could spend as much as $8 million in
         excess of adjusted industry standards on projects planned there for the
         next three years.

         In our opinion, the matters discussed in this report represent material
         internal control weaknesses within DOE that should be considered when
         preparing the yearend assurance memorandum on internal controls.




                                               _________/s/________________
                                           Office of Inspector General




Page 2                   Architect and Engineering Costs at Los Alamos
                         and Sandia National Laboratories
COSTS COMPARED TO INDUSTRY STANDARDS
Adjusted Industry   To determine the reasonableness of A-E costs, we compared line item
Standards Used      projects at Los Alamos and Sandia to industry benchmarks published in
                    Building Construction Cost Data by R.S. Means Company (Means), a
                    leading provider of construction cost information. This publication
                    provides standard A-E costs as a percentage of construction for various
                    types of projects. For example, a new $5 million municipal building has
                    a standard of 6.4 percent while a new $10 million laboratory or research
                    facility has a standard A-E to construction ratio of 7.8 percent. If the
                    project is an alteration or modification to an existing facility, Means
                    increases the standard ratio by 50 percent for the first $500,000 of
                    construction and 25 percent for the amount of construction over
                    $500,000. Thus, if a laboratory or research facility was being altered or
                    renovated by $10 million, the standard would rise from 7.8 percent to
                    9.85 percent.

                    We adjusted the Means standards upward by a factor of 25 percent to be
                    consistent with the 1990 OIG report Departmentwide Audit of Architect
                    and Engineering Design Costs and to accommodate special
                    requirements related to DOE projects. These requirements include
                    additional security associated with hazardous materials, additional
                    worker safety measures, and more detailed design requirements. When
                    we applied the adjusted standards to three projects at Sandia, we found
                    that the A-E costs compared favorably even though two of the projects
                    involved highly detailed designs. One of these was a Nonnuclear
                    Reconfiguration project for processing hazardous material used in
                    nuclear weapons. Another was a highly secure facility designed to
                    provide large areas for performing classified work. Based on this
                    favorable comparison between our adjusted standards and Sandia's A-E
                    costs, we concluded that Sandia’s A-E costs were reasonable.

                    Although Sandia's A-E costs compared favorably with the adjusted
Los Alamos A-E      standards, Los Alamos' A-E costs averaged 65 percent over the
Costs Not           standards for the seven projects reviewed. While A-E costs for two of
Reasonable          the seven projects reviewed were below the adjusted standards, the A-E
                    costs for the other five projects were higher, as shown in the following
                    table. A-E costs in the table include direct costs but exclude Los
                    Alamos' oversight costs.




Page 3                                                                   Details of Finding
                                      COMPARISON OF LOS ALAMOS
                                       A-E COSTS TO STANDARDS
                                             (In Thousands)


                                                          Adjusted
                                               Actual     Standard
                            Project           A/E Cost    A/E Cost     Difference
                    ATLAS                       $750        $486            $264
                    Beryllium Technology        1,041        827              214
                    Fire Protection               653        409              244
                    High Power Detonators         447        128              319
                    Neutron Tube Target         2,470        792            1678
                    Pit Support                   346        395             (49)
                    Water Well Replacements       765        887           (122)
                    TOTALS                     $6,472     $3,924         $2,548


                As the table shows, the A-E costs for five projects exceeded the
                adjusted standards in amounts ranging from $214,000 for the Beryllium
                Technology Project to $1.68 million for the Neutron Tube Target
                Project.

                Throughout Government, the importance of using benchmarks to
Importance of   measure performance and assess results has been noted. The 1993
Benchmarking    National Performance Review encouraged benchmarking an agency's
                performance against standards used by private industry and other
                Government agencies. DOE Order 430.1, Life Cycle Asset
                Management requires that the planning, design, construction, and
                management of physical assets incorporate industry standards and
                performance objectives. This Order is to be implemented on a site-by-
                site basis through the establishment of site-specific performance
                expectations and measurements.

                DOE acknowledged a problem with high A-E costs in response to the
                prior Departmentwide OIG audit of A-E costs and in 1993 issued the
                Improvement Plan for Reducing Architect-Engineering Costs. In this
                plan, DOE directed operations offices to manage to a standard A-E cost
                as a percentage of construction. Any projects that might exceed the
                standard were to have advance approval. The plan also required that
                operations offices use competition in procurement of A-E services. This
                plan required a commitment from the operations offices to oversee its
                implementation.



Page 4                                                               Details of Finding
Controls Over   In spite of the importance of benchmarking, Albuquerque and Los
Design Costs    Alamos had not measured performance against benchmarks. Although
                Los Alamos implemented a performance measure in 1996 that required
                it to "track and trend" A-E costs as a percentage of construction, the
                measure was given zero weight for performance evaluation purposes and
                a target percentage was not established. In 1997, the measure was still
                in effect, but the percentage was not tracked because Albuquerque and
                Los Alamos did not agree on which projects should be tracked. A
                performance measure that does not involve weight for performance
                evaluation purposes, that does not have an expected level of
                performance, and that is not tracked achieves no tangible result.

                Albuquerque set aside and did not use the Improvement Plan for
                Reducing Architect-Engineering Costs. Albuquerque officials told us
                that the plan was not policy and did not have to be followed. Further,
                they stated that under DOE Order 430.1, Life Cycle Asset Management,
                Albuquerque is required to rely on its "Best in Class" contractors to use
                best industry practices. Although we agree that it is desirable to rely on
                contractor expertise, such reliance does not preclude the need for
                benchmarking and measuring performance.

                A comparison of methods and approaches to A-E procurement between
Difference in   Los Alamos and Sandia revealed an additional reason for the higher
Procurement     costs at Los Alamos. Los Alamos, unlike Sandia, did not use
Methods         competition in selecting A-E contractors for the seven projects
                reviewed. Los Alamos had negotiated labor rate contracts with four
                prequalified A-E contractors. A Los Alamos project manager could
                then choose any one of these prequalified A-E firms to design a project.
                The project manager and staff negotiated the hours required to perform
                the design with the selected A-E contractor and a design order was
                prepared. There was no competition among the qualified A-E
                contractors for design of these projects. Thus, it is questionable whether
                the Government is getting the best cost. In addition, the door is opened
                for possible abuses because the project managers work directly with the
                A-E contractors and have the ability to directly select the contractor
                they want. Therefore, the justification for selection of an A-E firm
                may not be objective.




Page 5                                                                Details of Finding
Potential Savings   Based on the results of this audit, we believe that better controls are
on A-E Costs        needed over A-E costs on future projects and that costs can be avoided
                    on planned projects. For example, eight line item projects planned for
                    funding in the next three years have estimated total project costs of
                    $372.6 million. Based on our estimate of $107.3 million of construction
                    costs, Los Alamos could spend about $8 million in excess of the
                    adjusted industry standards on these projects if controls are not
                    improved.

                    We recommend that the Manager, Albuquerque Operations Office,
RECOMMENDATIONS
                    together with the Los Alamos Area Office and Los Alamos, take
                    aggressive action to control the excessive cost of A-E services.
                    Specifically, Albuquerque should require Los Alamos to:

                    1. establish performance measures to track A-E costs as a percentage
                       of construction with an expected level of performance and weight
                       for performance evaluation purposes; and

                    2. award contracts for A-E services (including design orders)
                       competitively based on technical competence and price.

                    Albuquerque concurred with the recommendations and stated that the
MANAGEMENT          Los Alamos Area Office had been tasked with development of a formal
REACTION            action plan related to the two recommendations. Therefore, neither
                    specific corrective actions nor associated target dates were provided.

                    In responding to the first recommendation, Albuquerque stated that a
                    "track-and-trend" performance measure for A-E costs is incorporated in
                    the Los Alamos contract’s Fiscal Year 1999 performance measures, and
                    that it will work with Los Alamos to determine if sufficient data exists
                    from the earlier and current "track-and-trend" efforts to establish sound
                    goals. If it is determined that sufficient data does not exist, Albuquerque
                    stated that it would continue the "track-and-trend" effort and any other
                    benchmarking opportunities would be pursued to develop a sufficient
                    data base to allow the establishment of a weighted measure.

                    In responding to the second recommendation, Albuquerque stated that
                    Los Alamos is preparing new procedures for A-E selection that will
                    incorporate technical competence and price.




Page 6                                                Recommendations and Comments
AUDITOR COMMENTS   Management's overall response is positive in recognizing the need to
                   better control A-E costs even though specific actions are still pending.
                   If the Los Alamos Area Office action plan clearly addresses the
                   recommendations and establishes reasonable target dates for completion,
                   the concerns raised in the report will be adequately addressed.




Page 7                                             Recommendations and Comments
Appendix
SCOPE         The audit was performed at Albuquerque, Los Alamos, and Sandia from
              September 23, 1997 to April 8, 1998. The following table shows the
              nine Los Alamos and three Sandia projects reviewed with their
              associated total project cost estimates.

                             TOTAL PROJECT COST ESTIMATES

                            PROJECT               SANDIA        LOS ALAMOS

                   ATLAS                                           $48,500,000
                   Beryllium Technology                             12,941,000
                   DARHT                                           114,760,001
                   Fire Protection                                  17,460,000
                   HE Wastewater Treatment                           6,124,000
                   High Power Detonator                              4,413,000
                   Neutron Tube Target Loading                      15,126,000
                   Pit Support                                       3,337,000
                   Water Well Replacement                           17,200,000

                   CNSAC                          $35,455,000
                   Neutron Generator               48,911,000
                   Technology Support Center       33,327,000

                   TOTALS                        $117,693,000     $239,861,001


              Although we initially reviewed nine projects at Los Alamos, we later
              excluded the DARHT and the HE Wastewater Treatment Facilities from
              the report. These projects' high A-E costs were caused by events
              beyond Los Alamos' control, or a small amount of redesign drastically
              reduced the construction cost which had inflated the A-E percentage of
              construction.

              To accomplish the audit objective, we:
METHODOLOGY
                 • determined the universe of open active line item projects;

                 • selected all projects from the list that followed the normal A-E
                   procurement process, that is, the projects were not designed and
                   built by one contractor;

                 • determined the A-E cost for the selected projects as a percentage
                   of construction;




Page 8                                                     Scope and Methodology
            • compared the A-E percentage of construction cost to the
              appropriate Means industry standard adjusted for DOE's special
              requirements;

            • obtained and reviewed the project history and procurement
              process for projects with high percentages compared to
              standards to determine why costs were high; and

            • calculated the projected A-E costs that may be spent in excess of
              adjusted industry standards in the future.

         The audit was conducted in accordance with generally accepted
         Government auditing standards for performance audits and included
         tests of internal controls and compliance with laws and regulations to the
         extent necessary to satisfy the objective of the audit. Because our
         review was limited, it would not necessarily have disclosed all internal
         control deficiencies that may have existed at the time of our audit. We
         performed limited testing of the reliability of computer-processed data in
         the cost reports used in our audit to ensure the cost reports represented
         actual expenditures.

         Albuquerque waived the exit conference.




Page 9                                                Scope and Methodology
                                                                             Report No.DOE/IG-0424


                                 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and therefore
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________

Telephone_______________________Organization___________________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be available electronically through the Internet at the
                                        following alternative address:


               U.S. Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.

                                    This report can be obtained from the
                                        U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                P.O. Box 62
                                       Oak Ridge, Tennessee 37831
